U.S. TRANSPORTATION COMMAND’S REPORTING OF PROPERTY, PLANT,
     AND EQUIPMENT ASSETS ON THE FY 2000 DOD AGENCY-WIDE
                   FINANCIAL STATEMENTS


Report No. D-2001-170                          August 3, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AMC                   Air Mobility Command
CIP                   Construction-In-Progress
DCS                   Defense Courier Service
DFAS                  Defense Finance and Accounting Service
HQ                    Headquarters
IPMS                  Integrated Processing Management System
MSC                   Military Sealift Command
MTMC                  Military Traffic Management Command
PP&E                  Property, Plant, and Equipment
TRANSCOM              Transportation Command
USTRANSCOM            United States Transportation Command
                       Office of the Inspector General, DoD
Report No. D-2001-170                                               August 3, 2001
  (Project No. D2001FH-0044.000)

    U.S. Transportation Command’s Reporting of Property, Plant,
      and Equipment Assets on the FY 2000 DoD Agency-Wide
                        Financial Statements

                                   Executive Summary

Introduction. This audit was performed to support the requirements of the Chief
Financial Officers Act of 1990, as amended by the Federal Financial Management Act
of 1994. The accuracy of the $78 billion of property, plant, and equipment reported on
the FY 2000 DoD Agency-Wide Financial Statements is essential to DoD receiving
favorable audit opinions on its financial statements. The U.S. Transportation
Command reported property, plant, and equipment with a net value of $1.4 billion in
the FY 2000 DoD Agency-Wide Financial Statements.

The U.S. Transportation Command is one of nine Unified Combatant Commands. It
consists of the following components: Headquarters, Transportation Command;
Air Mobility Command; Military Traffic Management Command; Military Sealift
Command; and Defense Courier Service. It is the only Unified Combatant Command
that includes a working capital fund (Transportation Working Capital Fund). The
U.S. Transportation Command’s financial statement data were included with the Other
Defense Organizations-Working Capital Funds for FY 2000.

Objectives. Our objective was to determine the accuracy of the U.S. Transportation
Command’s reporting of property, plant, and equipment (real and personal property)
assets on the FY 2000 DoD Agency-Wide Financial Statements. We reviewed the
operating procedures and documentation used to support the FY 2000 DoD Agency-
Wide Financial Statements. In addition, we assessed compliance with laws and
regulations and the management control program.

Results. Although problems with the U.S. Transportation Command reporting of
property, plant, and equipment were reported previously, the Command had not
developed an adequate strategy to fix the problems and did not report the problems as a
material weakness on its Annual Statement of Assurance to the Office of the Secretary
of Defense and Congress. Headquarters, Transportation Command, and the
Air Mobility Command could not support the amounts included in the FY 2000 DoD
Agency-Wide Financial Statements for property, plant, and equipment. For
Headquarters, Transportation Command, we could not verify $535.1 million of assets
or the $216.4 million of accumulated depreciation (net of $318.7 million) for those
assets. Similarly, for the Air Mobility Command, we could not verify the
$1,527.6 million of assets or the $837.9 million of accumulated depreciation (net of
$689.7 million) for those assets. For details of the audit result, see the Finding section
of the report. See Appendix A for details on the review of the management control
program.

Summary of Recommendations. We recommend that the Commander in Chief,
U.S. Transportation Command, and the Director, Defense Finance and Accounting
Service Denver, jointly develop an implementation plan for obtaining the information
for financial reporting of Headquarters, Transportation Command, and Air Mobility
Command property, plant, and equipment from standard Air Force property systems.
We also recommend that until U.S. Transportation Command’s financial reporting is
improved, the Commander in Chief, U.S. Transportation Command, add property,
plant, and equipment reporting as a material weakness on its Annual Statement of
Assurance, as required by the Federal Managers’ Financial Integrity Act.

Management Comments. The Deputy Commander in Chief, U.S. Transportation
Command, and the Director for Accounting, Defense Finance and Accounting Service,
concurred with our recommendations and held a meeting in May 2001 to address the
property, plant, and equipment issues. Both agreed to develop a plan to obtain timely
and accurate property, plant, and equipment financial data from existing financial and
property systems. The estimated completion date for all planned actions is September
2003. The Deputy Commander also agreed to include property, plant, and equipment
reporting as a material weakness in the next Annual Statement of Assurance. See the
Finding section of the report for a discussion of the management comments and the
Management Comments section for the complete text.




                                            ii
Table of Contents

Executive Summary                                                      i

Introduction
     Background                                                        1
     Objectives                                                        2

Finding
     Accuracy of U.S. Transportation Command’s Property, Plant, and
       Equipment Reporting                                             3

Appendixes
     A. Audit Process
         Scope and Methodology                                        10
         Management Control Program Review                            11
     B. Prior Coverage                                                13
     C. Report Distribution                                           14

Management Comments
     U.S. Transportation Command                                      17
     Defense Finance and Accounting Service                           20
Background
    This audit was performed to support the requirements of Public Law 101-576,
    the “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,”
    October 13, 1994. The Chief Financial Officers Act established a requirement
    for agencies to prepare annual audited financial statements. The value of
    property, plant, and equipment (PP&E) comprises a significant portion of the
    U.S. Transportation Command (USTRANSCOM) assets. For FY 2000,
    USTRANSCOM reported $1.4 billion in PP&E. Amounts reported by the five
    U.S. Transportation Command components are presented in Table 1.


                           Table 1. Net Amounts of PP&E
                          Reported by Component - FY 2000
                                    (in millions)

                                                                Net Amount
                                  Component
                                                                 Reported

           Headquarters, Transportation Command (HQ TRANSCOM)    $   318.7
           Air Mobility Command (AMC)                                689.7
           Military Traffic Management Command (MTMC)                372.9
           Military Sealift Command (MSC)                             29.4
           Defense Courier Service (DCS)                               3.0
            Total                                                $ 1,413.7

    Unified Combatant Commands. Operational control of the U.S. combat
    forces is assigned to the nation’s Unified Combatant Commands. Unified
    Combatant Commands are composed of forces from two or more Military
    Services. Unified Combatant Commands have broad and continuing missions
    and are normally organized on a geographical basis. The number of Unified
    Combatant Commands is not fixed by law or regulations and may vary from
    time to time. Currently, there are nine Unified Combatant Commands:
    U.S. European Command, U.S. Pacific Command, U.S. Joint Forces
    Command, U.S. Southern Command, U.S. Central Command, U.S. Space
    Command, U.S. Special Operations Command, U.S. Strategic Command, and
    U.S. Transportation Command.

    Our audit focused on the PP&E possessed by USTRANSCOM and the U.S.
    Special Operations Command. This report discusses what we identified for
    USTRANSCOM. We will publish a separate report for the U.S. Special
    Operations Command. USTRANSCOM consists of the following components:
    Headquarters, Transportation Command; Air Mobility Command; Military
    Traffic Management Command; Military Sealift Command; and Defense
    Courier Service. We did limited audit work for the U.S. Strategic Command,
    primarily to determine where the headquarters element and its components
    reported their PP&E. Each of the unified command headquarters has a Service
                                            1
     executive agent that provides support. We concluded that with the exception of
     USTRANSCOM and U.S. Special Operations Command, the headquarters
     elements report their PP&E through their Service executive agent and the
     individual components report their PP&E through their parent Service.

     The Defense Finance and Accounting Service (DFAS) reported USTRANSCOM
     financial statement amounts as part of the Other Defense Organizations-Working
     Capital Funds for FY 2000. Table 2 lists the details by account for the
     $1.4 billion for general PP&E, net of depreciation, reported by
     USTRANSCOM for FY 2000.


                           Table 2. Net Amount of PP&E
                           Reported by Account - FY 2000
                                    (in millions)
                                                           Amount
                                 Type PP&E
                                                           Reported
                    Land                                    $   8.7
                    Real Property                             632.9
                    Depreciation-Real Property               (276.0)
                    Construction in Progress                   22.2
                    Equipment                               1,024.9
                    Depreciation-Equipment                   (524.9)
                    ADP Management Systems                  1,083.2
                    Amortization-ADP Management Systems      (559.4)
                    Other Natural Resources                     2.1
                     Total (Net) Amount Reported          $ 1,413.7


Objectives
     Our objective was to determine the accuracy of the USTRANSCOM reporting
     of PP&E assets (real and personal property) included in the FY 2000 DoD
     Agency-Wide Financial Statements. We assessed compliance with laws and
     regulations and the management control program. See Appendix A for a
     discussion of the audit scope, methodology, and review of the management
     control program. See Appendix B for prior coverage related to the audit
     objectives.




                                         2
           Accuracy of U.S. Transportation
           Command’s Property, Plant, and
           Equipment Reporting
           Although problems with the USTRANSCOM reporting of PP&E were
           reported previously, the Command had not developed an adequate
           strategy to fix the problems and did not report the problems as a material
           weakness on its Annual Statement of Assurance to the Office of the
           Secretary of Defense and Congress. HQ TRANSCOM and AMC could
           not support the amounts included in the FY 2000 DoD Agency-Wide
           Financial Statements for PP&E. These conditions occurred because
           HQ TRANSCOM and AMC did not use subsidiary ledgers as the basis
           for financial reporting of PP&E asset values and for calculating
           depreciation amounts. Because of control and information deficiencies,
           we could not verify that the amounts reported for PP&E were complete
           and could be relied upon to accurately represent the value of
           HQ TRANSCOM and AMC PP&E. For HQ TRANSCOM, we could
           not verify $535.1 million for assets and $216.4 million of depreciation
           for a net of $318.7 million, and for AMC, we could not
           verify $1,527.6 million for assets and $837.9 million for depreciation,
           for a net amount of $689.7 million.

Financial and PP&E Reporting Policy
    Departmental Financial Reports Roles and Responsibilities. DoD
    Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 6A,
    “Reporting Policies and Procedures,” January 2001, chapter 2, “Departmental
    Financial Reports Roles and Responsibilities,” states that the DFAS customer is
    responsible for ensuring the accuracy, completeness, timeliness, and
    documentary support for all data generated by the customer (USTRANSCOM).
    Further, it requires the customer to maintain audit trails in sufficient detail to
    permit tracing of all transactions with a unique identity. The same chapter notes
    that DFAS customers often maintain the supporting records for many financial
    balances that are outside the control of DFAS. For example, DFAS does not
    control the inventories of PP&E for USTRANSCOM components.
    DoD Regulation 7000.14-R also requires that when a customer outside of the
    control of DFAS maintains subsidiary records, DFAS must establish a schedule
    to reconcile the subsidiary records with the financial balances.

    Fixed Assets. Specific PP&E guidance for fixed assets is contained in
    DOD Regulation 7000.14-R, volume 4, “Accounting Policy and Procedures,”
    January 2001, chapter 6, “Property, Plant, and Equipment.” Chapter 6
    establishes policy for when to start accounting for depreciation, what cost to use
    for calculating depreciation, and who reports the value of buildings when the
    owner and tenant are not the same organization.




                                        3
        •   Depreciation of an asset begins the month the asset becomes available
            for service or mid-year of the year the asset enters service.

        •   The recorded cost of general PP&E assets is the basis for computing
            depreciation. The recorded cost may be different from the acquisition
            cost, book value, or fair market value, since the recorded cost may
            include additional ancillary costs.

        •   When a working capital fund organization is the preponderant user of a
            facility, that working capital fund organization shall report and
            depreciate that facility on its annual financial statements.

USTRANSCOM Chief Financial Officer Process
    DFAS Indianapolis placed USTRANSCOM PP&E values in the FY 2000 DoD
    Agency-Wide Financial Statements as part of the Other Defense Organizations-
    Working Capital Funds. DFAS Indianapolis received its information from
    DFAS Denver. DFAS Denver received its information from five trial balances
    prepared by DFAS Omaha. Each of these trial balances represented a different
    component of USTRANSCOM. Three of the five components had both a
    transportation working capital fund element (USTRANSCOM) and a Service
    element. The working capital fund and Service elements both possess PP&E.
    HQ TRANSCOM and the DCS were exclusively working capital fund elements.

    DFAS Omaha prepared the five USTRANSCOM trial balances using PP&E
    data from various sources. The source of the PP&E amounts for the MTMC
    and MSC were property subsidiary ledgers that was part of their accounting
    systems. MTMC used the Financial Management System as its accounting
    systems, and MSC used Oracle. DFAS Omaha maintained the PP&E subsidiary
    ledger for MTMC, and HQ MSC maintained its own subsidiary ledger. DFAS
    Omaha did not use subsidiary ledgers as the source of the amounts for
    HQ TRANSCOM, AMC, and DCS. Because the DCS PP&E reporting was
    limited to real property amounts of approximately $3 million, we did not
    address it further in this report.

Source of HQ TRANSCOM and AMC Amounts
    Values for Asset Accounts. HQ TRANSCOM and AMC could not support
    their PP&E values because they did not use subsidiary ledgers as the source of
    the amounts reported for PP&E. Because they did not provide DFAS with
    information derived from subsidiary ledgers, DFAS used alternative procedures
    for reporting the value of PP&E. The amounts DFAS reported for the PP&E
    asset accounts consisted of three elements. The three elements of the asset
    account amounts were a base amount, Construction-In-Progress (CIP), and
    expenditure amounts.

       •    The base ($1.09 billion) was composed of PP&E amounts reported for
            several previous years. This base did not include the FY 1999
            allocation of CIP to the property account.



                                       4
        •    The CIP account included costs ($730.6 million) for real property,
             equipment, and software that DFAS had accumulated over several
             years and then allocated to the asset accounts during preparation of the
             FY 1999 financial statements. DoD policy is that the CIP account is
             used for accumulating costs for real property, not equipment and
             software.

        •    Expenditure amounts were the FY 2000 expenditures ($249.1 million)
             for real property, equipment, and software that DFAS added to the
             asset amounts reported in FY 1999.

    HQ TRANSCOM and AMC Depreciation. HQ TRANSCOM and AMC
    calculated their PP&E depreciation and provided the amounts to DFAS Omaha.
    Both HQ TRANSCOM and AMC calculated depreciation on amounts budgeted
    for asset acquisitions rather than on the recorded cost of assets in their
    possession. DoD guidance states that depreciation begins the month or mid-year
    of the year the asset enters service. The guidance further states that the
    recorded cost of the asset is the basis for calculating depreciation. Neither the
    date the asset entered service nor the recorded cost of an asset can be known if
    budget amounts are used as the basis for calculating depreciation.

    Accurate financial reporting of PP&E assets depends on reliable subsidiary
    ledgers as the source of asset values and information on which to calculate
    depreciation for individual assets. Without the dates that assets enter service
    and the actual recorded cost of on-hand assets, the Components cannot support
    reported asset or depreciation amounts. HQ TRANSCOM, AMC, MTMC, and
    MSC all had subsidiary ledgers, but only MTMC and MSC were using them for
    financial reporting.

Component Subsidiary Ledgers
    Current Methods for PP&E Reporting. USTRANSCOM components did not
    use a single property system (subsidiary ledger) or a single accounting system
    for PP&E reporting. Rather, HQ TRANSCOM and AMC maintained property
    accountability records for real property and equipment in Air Force logistic
    systems that were not integrated with the accounting system. Although
    accountability for their Information Technology equipment was maintained in
    the Air Force Integrated Processing Management System (IPMS), software was
    not. MSC and MTMC recorded software assets in the fixed asset subsidiary
    ledgers; and the ledgers were integrated with their accounting systems.

    PP&E Ownership. A key prerequisite for accurate financial reporting is
    correctly identifying the owner on the property record. HQ TRANSCOM and
    AMC used the same code to identify ownership in the Air Force property
    systems. The inability to distinguish between the Components was a reason
    DFAS Denver gave for not using the systems for USTRANSCOM financial
    statement reporting. Additionally, both AMC working capital fund
    organizations and other AMC general fund organizations recorded assets in the
    Air Force systems. This created the potential for misidentification between
    working capital fund and general fund assets. Such misidentification could
    result in reporting the asset amounts on the wrong financial statements.


                                        5
Table 3 lists the subsidiary ledgers that DFAS used or should have used as the
source of PP&E data for USTRANSCOM financial statement reporting.


                 Table 3. Major Property Subsidiary Ledgers

                                                                            Used for
              Type of                   Type of Assets       Calculates
   System                 Component                                         FY 2000
              System                                        Depreciation
                                                                           Statements

 ACES       Logistics     HQ & AMC          Real Property       Yes           No

                                              Non-IT-
 AFEMS      Logistics     HQ & AMC                              Yes           No
                                             Equipment

            Logistics     HQ & AMC      IT Equipment &          Yes           No
 IPMS
                                           Software
            Accounting      MTMC        Real Property &         Yes           Yes
 FMS
                                          Equipment
            Accounting       MSC            Equipment &         Yes           Yes
 Oracle
                                              Software

 ACES            Automated Civil Engineering Systems
 AFEMS           Air Force Equipment Management System
 IT              Information Technology
 IPMS            Information Processing Management System
 FMS             Financial Management System


        Air Force Systems. Although HQ TRANSCOM and AMC used the
Air Force property systems for PP&E accountability, they did not use them for
financial reporting. Nonetheless, the same Air Force systems were the primary
source of PP&E amounts for the Air Force general fund financial statements.

        MTMC Subsidiary Ledger. DFAS Omaha derived the MTMC
reported amounts from a subsidiary ledger that DFAS Omaha reconciled
quarterly to the property records. The subsidiary ledger was integrated with the
Financial Management System. We did not test the MTMC subsidiary ledger
for existence and completeness, but reviewed the management controls
associated with the quarterly reconciliation process. The quarterly
reconciliation was in accordance with the DOD Regulation 7000.14-R
requirement to have a periodic reconciliation between the property records and
the financial records.

        MSC Subsidiary Ledger. In July 2000, MSC converted to a new
accounting system that includes a subsidiary ledger. We did not perform
existence and completeness tests on the subsidiary ledger, but we did review the
process and data used to populate the new system. The MSC subsidiary ledger
differentiated between MSC working capital fund assets and other MSC assets.
MSC recorded its equipment and software in the subsidiary ledger regardless of
whether the asset’s value met the capitalization threshold.




                                        6
Changing the Process
    For HQ TRANSCOM and AMC to reliably report asset values and depreciation
    using the Air Force property systems as subsidiary ledgers, several actions must
    be taken, including improvements to management controls. Effective
    management controls are essential to ensure that the subsidiary ledgers contain
    accurate values and dates along with ensuring that all owned PP&E is recorded.
    They also ensure that recorded values are changed or deleted when an asset is
    modified or disposed. Before HQ TRANSCOM and AMC can rely on the
    Air Force systems to support the management assertions embodied in their
    financial statements, they must complete several tasks. The applicable
    assertions are existence, completeness, valuation, and rights and obligations.
    Table 4 presents the tasks and links them to the management assertion the task
    supports.


          Table 4. Tasks Required to Meet Financial Reporting Standards
                          by Using Subsidiary Ledgers


     Management                                   Task
      Assertion

                    Each Component’s PP&E equipment assets must be separately
       Rights &     identified in the Air Force property systems using Component
      obligations   unique ownership codes.

                    AMC must ensure that its units correctly differentiate between
       Rights &     AMC working capital fund and AMC general fund assets and
      obligations   then code the records appropriately.

     Completeness HQ  TRANSCOM and AMC must verify that all their assets are
      & existence recorded in
                  recorded    the property systems (completeness) and that all
                           assets are on hand (existence).

     Completeness HQ   TRANSCOM and AMC must ensure that all information
                  technology equipment is recorded in the IPMS system,
                  including equipment in the hands of contractors.

     Completeness All software must be recorded in IPMS including the cost and
                  the date entered service.

                    The acquisition date or date placed in service along with the
       Valuation    recorded cost must be verified for each PP&E asset meeting the
                    capitalization threshold.

                    The asset and depreciation amounts reported in the FY 2000
       Valuation    financial statements must be reconciled with the amounts
                    recorded in the property systems.



                                        7
Annual Statement of Assurance
    The problems identified for USTRANSCOM reporting have existed for a
    number of years. Several Inspector General, DoD, and Air Force Audit
    Agency reports have identified problems with one or more categories of PP&E.
    For example, Inspector General, DoD, Report No. 97-112, “Air Mobility
    Command Financial Reporting of Property, Plant, and Equipment,” March 19,
    1997, notes that, “Since FY 1993, the Inspector General (IG), DoD, and the
    Air Force Audit Agency have been unable to determine the fairness of AMC
    PP&E accounts.” The report also notes that despite the availability of data
    needed for financial control of physical assets, AMC did not use the data to
    maintain financial control of assets. In its report, Project 98068025, “Airlift
    Services Division, Property, Plant, and Equipment Accounts, Air Force
    Working Capital Fund, Fiscal Year 1998,” 13 April 1999, the Air Force Audit
    Agency states that, “AMC organizations did not possess adequate subsidiary
    records, data systems, and internal controls to support real property, equipment,
    automated data processing systems and the related accumulated depreciation
    balances.” The report states, and we agree, that AMC should report
    weaknesses in their Annual Statement of Assurance. USTRANSCOM did not
    report this weakness in its Annual Statement of Assurance, 15 November 2000.
    Although the Air Force Audit Agency confined its work to AMC, the same
    conclusions apply to HQ TRANSCOM who uses the same accountability and
    nearly the same reporting procedures and method for calculating depreciation.
    The need for subsidiary ledgers was well known, and timely action to start using
    the subsidiary ledgers was lacking.

Recommendations and Management Comments
    1. We recommend that the Commander in Chief, U.S. Transportation
    Command, and the Director, Defense Finance and Accounting Service
    Denver, jointly develop an implementation plan for obtaining the property,
    plant, and equipment information for financial statement reporting from
    standard Air Force property systems. The plan must include the specific
    tasks at Table 4, task assignments, milestones, progress metrics, and exit
    criteria. In summary, the Headquarters U.S. Transportation Command
    and Air Mobility Command must:

                  a. Accurately identify the correct Component information in
    the Air Force databases for each item of property, plant, and equipment.

    Management Comments. The Deputy Commander in Chief, U.S.
    Transportation Command, concurred and stated that changes will be made to
    Air Force property systems to differentiate among the Components. The
    Director for Accounting, Defense Accounting and Finance Service, also
    concurred.




                                        8
              b. Verify the existence and completeness of the Air Force
databases for the Components’ property, plant, and equipment.

Management Comments. The Deputy Commander concurred and stated that
existence and completeness would be verified by reconciling all system records
with the actual assets and verifying that the information in the records about the
assets is correct. The Director also concurred.

              c. Reconcile the value of the assets and accumulated
depreciation reported in FY 2000 with the amounts recorded in the
Air Force databases after Recommendations 1. a. and 1. b. are completed.

Management Comments. The Deputy Commander concurred and stated that
the value of the assets and accumulated depreciation would be reconciled with
the property databases. The Director concurred and added that after completing
the reconciliation, DFAS will report the identified differences as a prior period
adjustment.

               d. Establish a task for the Defense Finance and Accounting
Service and the Air Force to create electronic interfaces between the
logistics and the accounting systems for transferring data, that is, integrate
the property systems with the accounting systems.

Management Comments. The Deputy Commander concurred and stated that
the accounting and logistics systems would be integrated. The Director said that
the three logistics systems will interface with Defense Finance and Accounting
Center Denver systems and estimated that the interface will be completed by
September 30, 2002.

2. We recommend that the Commander in Chief, U.S. Transportation
Command, add property, plant, and equipment reporting as a material
weakness to the Annual Statement of Assurance as required by the Federal
Managers’ Financial Integrity Act for Headquarters, Transportation
Command and the Air Mobility Command.

Management Comments. The Deputy Commander agreed to add Property,
Plant, and Equipment reporting as a material weakness in the next Annual
Statement of Assurance for U.S. Transportation Command.




                                     9
Appendix A. Audit Process

Scope and Methodology
    Work Performed. In this financial-related audit, we identified and evaluated
    the policies, processes, and procedures for the financial reporting of $1.4 billion
    of USTRANSCOM PP&E on the FY 2000 DoD Agency-Wide Financial
    Statements. We focused on real property, non-information technology
    equipment, software, and information technology equipment. We did not
    review land or other natural resources, which were included with the PP&E
    reported for USTRANSCOM. We identified and evaluated the sources,
    reliability, and support for the amounts reported. We also evaluated the
    management controls associated with the flow of PP&E information from the
    customer through DFAS to the financial statements. During the course of this
    audit we met with and gathered information and data from DFAS,
    HQ TRANSCOM, MTMC, MSC, AMC, and DCS.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to the following corporate-level goal, subordinate performance goal, and
    performance measures.

    FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key war-fighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-2)

             • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

             • FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-D-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

             • Financial Management Area. Objective: Strengthen internal
               controls. Goal: Improve compliance with the Federal Managers’
               Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the financial management high-risk area.

    Use of Computer Processed Data. We reviewed computer-processed data
    without performing tests of system general and application controls to confirm
                                        10
    the reliability of the data. Moreover, we did not establish reliability of the data
    by performing existence, completeness, and valuation testing of the databases
    because three of five Components were not using databases for USTRANSCOM
    financial statement reporting. In addition, we did not test the reliability of the
    Command On-line Accounting Systems database because DFAS should not have
    used it as the source of reported amounts for PP&E. The Command On-line
    Accounting Systems is the source of the expenditure data that DFAS Omaha
    used to prepare the trial balances for HQ TRANSCOM, AMC, and DCS. We
    are not using the data to make projections about the reported amounts. Because
    HQ TRANSCOM, AMC, and DCS did not use the Air Force property systems
    for financial statement reporting, the accuracy of the Air Force property systems
    did not have an impact on our audit. If USTRANSCOM and DFAS implement
    our recommendations, the accuracy of the Air Force systems will affect future
    financial statements.

    Audit or Evaluation Type, Dates, and Standards. We performed this
    financial-related audit from May 2000 through April 2001 in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We did our work in accordance
    with generally accepted Government auditing standards except that we were
    unable to obtain an opinion on our system of quality control. The most recent
    external quality control review was withdrawn on March 15, 2001, and we will
    undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DFAS, USTRANSCOM, and its Component commands’
    management controls for reporting property, plant, and equipment in the Chief
    Financial Officer statements. Specifically, we reviewed the management
    controls to ensure that the amounts reported on the financial statements for
    PP&E were accurate and that USTRANSCOM and DFAS could support the
    reported numbers. We reviewed the USTRANSCOM self-evaluation applicable
    to those controls.

    Adequacy of Management’s Controls. We identified a material management
    control weakness for USTRANSCOM as defined by DoD Instructions 5010.40.
    Management was not able to support the amounts reported on the financial
    statements and had not taken adequate steps to correct problems identified in
    previous Inspector General, DoD, and Air Force Audit Agency reports.



                                        11
Recommendation 1., if implemented, will correct the reported weakness.
A copy of the report will be provided to the senior official responsible for
management controls in USTRANSCOM.

Adequacy of Management’s Self-Evaluation. USTRANSCOM officials did
not identify financial reporting of PP&E as an assessable unit and, therefore, did
not identify or report the material management control weaknesses identified by
the audit. Because PP&E reporting problems were known to exist and had been
documented in prior audit reports, the reporting problems should have been
included in the Annual Statement of Assurance required by the Federal
Managers’ Financial Integrity Act. Recommendation 2., when implemented,
will correct this omission.




                                    12
Appendix B. Prior Coverage

General Accounting Office Reports
    GAO Report No. NSIAD-99-100 “Military Infrastructure: Real Property
    Management Needs Improvement,” (Letter Report, September 7, 1999)

Inspector General, DoD
    Inspector General, DoD, Report No. 99-134, “Year 2000 Compliance of
    Selected Air Mobility Command Systems,” April 13, 1999

    Inspector General, DoD, Report No. 98-205, “Financial Management Practices
    in the Military Sealift Command,” September 25, 1998

    Inspector General, DoD, Report No. 98-050, “Defense Business Operations
    Fund Adjustments at the Defense Finance and Accounting Service Denver
    Center,” January 20, 1998

    Inspector General, DoD, Report No. 98-046, “Military Traffic Management
    Command Financial Reporting of Property, Plant, and Equipment,” January 14,
    1998

    Inspector General, DoD, Report No. 97-112, “Air Mobility Command Financial
    Reporting of Property, Plant, and Equipment,” March 19, 1997

Naval Audit Service
    Naval Audit Service, Report No. 055-99, "Fiscal Year 1998 Financial Internal
    Controls at Military Sealift Command," August 19, 1999

Air Force Audit Agency
    Air Force Audit Agency Report, Project 98068025, “Airlift Services Division,
    Property, Plant, and Equipment Accounts, Air Force Working Capital Fund,
    Fiscal Year 1998,” April 13, 1999




                                      13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, Military Traffic Management Command

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Military Sealift Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
 Deputy Assistant Secretary (Financial Operations)
Auditor General, Department of the Air Force
Commander, Air Mobility Command

Unified Commands
Commander in Chief, U.S. Transportation Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Denver

Non-Defense Federal Organizations
Office of Management and Budget




                                           14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         15
16
U.S. Transportation Command Comments




                 17
18
19
Defense Finance and Accounting Service Comments




                        20
21
22
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for Auditing,
DoD, prepared this report. Personnel of the Office of the Inspector General, DoD, who
contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
David F. Vincent
Barbara A. Sauls
Elizabeth A. Lucas
H. Ronald Tollefson
Kenneth A. Weron
Brett A. Mansfield
Timothy M. Nelson
Leon D. Bryant
Christopher A. Ulrich
Crystal A. Oliver
Monica L. Noell
Lisa C. Rose-Pressley
